No. 20-A87

In The Supreme Court of the United States
_____________________

THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NEW YORK,
Applicant,
v.
GOVERNOR ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY,
Respondent,

CERTIFICATE OF SERVICE

I, Randy M. Mastro, hereby certify that I am a member of the Supreme Court
Bar, and that I have on this 19th day of November 2020, caused a copy of
Applicant’s Reply Brief in Support of Emergency Application for Writ of Injunction
to be served via electronic mail, and via overnight mail to anyone who does not
consent to service via electronic mail, to:

Barbara D. Underwood
Solicitor General of the State of New York
New York State Office of the Attorney General
Division of Appeals & Opinions
23rd Floor
28 Liberty Street
New York, NY 10005
Barbara.underwood@ag.ny.gov
Counsel for Respondent

/s/ Randy M. Mastro
RANDY M. MASTRO
GIBSON, DUNN & CRUTCHER LLP
200 Park Avenue
New York, NY 10166
(212) 351-4000
rmastro@gibsondunn.com
Counsel for Applicant

